CREDIT CARD
ACCOUNT
OPENING
DISCLOSURE
VISA
This Disclosure is incorporated into and becomes part of Your LOANLINER® Consumer Credit Card Agreement &
Disclosure. Please keep this attached to Your LOANLINER Consumer Credit Card Agreement & Disclosure.
Interest Rates and Interest Charges
Annual Percentage Rate (APR) for
Purchases

2.99%

Introductory APR for a period of six billing cycles.

After that, Your APR will be

8.90%

.

APR for Balance Transfers

2.99%

APR for Cash Advances

After that, Your APR will be 8.90% .
2.99% Introductory APR for a period of six billing cycles.

Paying Interest

For Credit Card Tips from the
Consumer Financial Protection Bureau

Introductory APR for a period of six billing cycles.

After that, Your APR will be 8.90% .
Your due date is at least 25 days after the close of each billing cycle. We will
not charge You any interest on purchases or balance transfers if You pay
Your entire balance by the due date each month. We will begin charging
interest on cash advances on the transaction date.
To learn more about factors to consider when applying for or using a
credit card, visit the website of the Consumer Financial Protection
Bureau at http://www.consumerfinance.gov/learnmore.

Fees
Annual Fee
- Annual Fee

None

Transaction Fees
- Foreign Transaction Fee

1.00% of each transaction in U.S. dollars

Penalty Fees
- Late Payment Fee
- Over-the-Credit Limit Fee
- Returned Payment Fee

None
None
Up to $26.00

How We Will Calculate Your Balance:
We use a method called "average daily balance (excluding new purchases and balance transfers) (including new cash
advances)." See Your Account Agreement for more details.
Promotional Period for Introductory APR:
The Introductory APR for purchases, balance transfers and cash advances will apply to transactions posted to Your
Account during the first six months following the opening of Your Account.
Billing Rights:
Information on Your rights to dispute transactions and how to exercise those rights is provided in Your Account
Agreement.
Military Lending Act Disclosures:
Federal law provides important protections to members of the Armed Forces and their dependents relating to extensions
of consumer credit. In general, the cost of consumer credit to a member of the Armed Forces and his or her dependent
may not exceed an annual percentage rate of 36 percent. This rate must include, as applicable to the credit transaction or
account: The costs associated with credit insurance premiums; fees for ancillary products sold in connection with the
SEE NEXT PAGE for more important information about Your Account.
© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

04213945-MXC20-P-1-052217 (MXC201-E)

credit transaction; any application fee charged (other than certain application fees for specified credit transactions or
accounts); and any participation fee charged (other than certain participation fees for a credit card account).
Please call us at (844) 674-1423 to receive oral disclosures of the Military Lending Act disclosure above and a description
of the payment obligation.
Other Fees & Disclosures:
Returned Payment Fee:
$26.00 or the amount of the required minimum payment, whichever is less. If Your Account is subject to a Returned
Payment Fee, the fee will be charged to Your Account when a payment is returned for any reason.
Pay-by-Phone Fee:
$5.00. If Your Account is subject to the Pay-by-Phone Fee, except as limited by applicable law, a fee will be charged for
each time You make a payment by telephone as disclosed on this Disclosure.
Rush Fee:
$42.00. If Your Account is subject to a Rush Fee, except as limited by applicable law, a fee may be charged to Your
Account for each rush Card that You request, providing that delivery of the Card is also available by standard mail service,
without paying a fee for delivery.
Statement Copy Fee:
$2.00 . If Your Account is subject to a Statement Copy Fee, except as limited by applicable law and when the request is
made in connection with a billing error made by the Credit Union, a fee may be charged to Your Account for each copy of
a sales draft or statement that You request.
Collection Costs:
You agree to pay all costs of collecting the amount You owe under this Agreement, including court costs and reasonable
attorney's fees.
Periodic Rates:
The Introductory Purchase APR is 2.99% which is a monthly periodic rate of 0.2492%. .
The Purchase APR is 8.90% which is a monthly periodic rate of 0.7417% .
The Introductory Balance Transfer APR is 2.99% which is a monthly periodic rate of 0.2492%. .
The Balance Transfer APR is 8.90% which is a monthly periodic rate of 0.7417% .
The Introductory Cash Advance APR is 2.99% which is a monthly periodic rate of 0.2492%. .
The Cash Advance APR is 8.90% which is a monthly periodic rate of 0.7417% .

© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

04213945-MXC20-P-1-052217 (MXC201-E)

